WAIVER

Supreme Court of the United States

No. 20-6283
Robert Brownlee v. Mark Capozza, Superintendent, State
Correctional Institution at Fayette
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
x Please enter my appearance as Counsel of Record for all respondents.

OQ There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

* Iam a member of the Bar of the Supreme Court of the United States.

O Iam not presently a member of the Bar of this Court. Should a response be requested,

the response will be filed by a Bar member.
Signature f 2 >

Date: Sy b d

Jeffrey D. Burkett
& Mr. OMs. O Mrs, O Miss

 

(Type or print) Name.

Firm Jefferson County District Attorney
Address__ Jefferson County Courthouse, 200 Main Street
City & State Brookville, PA Zip 15825
Phone __ 814-849-1511

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF

PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Mrs. Cheryl J. Sturm

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.
